NO.

IN THE
SUPREME COURT OF THE UNITED STATES
JOSHUA SCOTT RICHARDS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Joshua Scott Richards, by and through his court-appointed
counsel, John C. Arceci, Assistant Federal Public Defender for the Districts of
Colorado and Wyoming, respectfully requests that this Honorable Court grant him
leave to proceed in forma pauperis in petitioning for a Writ of Certiorari. In support
of this request, Petitioner states that undersigned counsel was appointed pursuant to
1

the Criminal Justice Act, 18 U.S.C. ยง 3006A, by the United States Court of Appeals
for the Tenth Circuit, and that he is unable to retain counsel and pay for costs
attendant to the proceedings before this Honorable Court.
WHEREFORE, the Petitioner, Joshua Scott Richards, respectfully requests
that he be granted leave to proceed in forma pauperis.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender
/s/ John C. Arceci
JOHN C. ARCECI
Assistant Federal Public Defender
Counsel of Record for Petitioner
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002

2

